i

Supreme Court, U S
FILED

JUN 2 i 2019
ofrceofthf Cl C9K

IN THE
SUPREME COURT OF THE UNITED STATES

JESSIE D. MCDONALD,

)
)

Petitioner, )
)

) Certiorari before
) Judgment on Appeal
FEDERAL COMMUNICATIONS )
COMMISSION, et al„
) Case No. 19-5448 &
)
19-5449-RLJ
Respondent(s). ) Judicial Council
) No. 06-18-90024
v.

On application for Writ of Certiorari
Before Judgment on Appeal in the
Sixth Circuit Court of Appeals
PETITION FOR WRIT CERTIORARI
Dr. Jessie D. McDonald, Ph.D., Pro se
P.O. Box 60641
Nashville, TN 37206-0641
(615) 238-1861

i

QUESTIONS PRESENTED
1. Whether the Sixth Circuit Judicial Council have
supervisory powers over district court judges?
2. Whether 28 U.S.C. §352(b)(l)(A)(ii)(&(iii)( and
Rule 11(c)(1)(B) &(C) of the Rules for JudicialConduct and Judicial-Disability Proceedings is
unconstitutional?
3. Whether “due process” require provisions for a
Motion to Rehear or an appeal of final orders?
4. Whether 28 U S.C. §357 and Rule 9(b) of the
Rules for Judicial-Conduct and Judicial-Disability
Proceedings violate due process when there is no
procedure for a rehearing or appeal?
5. Whether judges have immunity when acting
outside the judicial scope of the court jurisdiction
or abusing judicial powers?
6. Whether a judge’s action outside the scope of the
court’s jurisdiction by influencing another judge to
act with malice or corruptly in cases before their
court constitute judicial misconduct?
7. Whether judges should recuse themselves from
cases where the litigant has filed judicial
misconduct charges against them?
8. Whether judges have the authority to take a
litigant’s money without a legal judgment
authorizing the court to do so?
i.

9. Whether trial judge was acting with bias and
prejudices in this case?
10. Whether officers of the court and judges are
immune from monetary damages when acting
corruptly, with bias and malice and causing
irreparable injury on litigants?
11. Whether judges have abused their discretion by
instructing the clerk of the court to divert specific
cases to their office by deviating from the normal
case assignment protocol?
12. Whether 28 U.S.C,§351-364 is unconstitutional by
assigning jurisdiction to the Sixth Circuit Judicial
Council, when court of appeals judges has no
supervisory powers over district court judges?
13. Whether judicial misconduct is present when
judges abuse their discretion by finding no
wrongful conduct by chief judge, when the accused
judge acted without jurisdiction?
14. Whether this Court has jurisdiction to expel a
federal judge for judicial misconduct?
15. Whether the public election is valid that denies or
prohibits Independent Candidates from having
equal time as Democratic and Republican
Candidates?

ii.

i

LIST OF PARTIES
The Petitioner, Dr. Jessie D. McDonald is the only
petitioner in this case;
Federal Communications Commission; Tennessee
Elections Commission; The Judicial Council of the Sixth
Circuit; and the Solicitor General are the respondents in
this case;

11.

TABLE OF CONTENTS
Questions for Review ......................

1.

List of Parties....................................

n

Orders Below ..................................

1

Statement of Jurisdiction...............

2

Imperative Public Importance___

2

Statement Of Facts..........................

3

Concise Argument............................

6

Statutory Provisions Involved........

6

Constitution Provision Involved

7

Reasons for granting Petition........

7

Relief Sought....................................

13

Joint Appendix............... ........... ......

App., P. 14

Order denying leave to amend and
Extraordinary writ of prohibition ..

App., P. 14

Order denying leave to file Motion for Relief
From Judgment.....................................
App., P. 17
Order from Sixth Circuit Judicial
Council
..............................................
Circuit Executive notifying of
no further review of final decision ....

m

App., P. 21
App., P. 23

i

Authorities
Cases

Page

Brown v. Vankeuren,
340, Ill. 118 (1930);

13

In Re, Mac Niel Bros. Co.,
C.A. Mass., 1958, 259 F. 2d 386;

11

Johnson v. Zerbst,
304 U.S. 458, 58 S. Ct. 1019;

13

Ligon v. Williams,
264 Ill. App. 3d 701 (1994);

13

Ortman v. Thomas,
99 F. 3d 807, 811 (6th. Cir., 1996);

13

Pulliam v. Allen,
466 U.S. 522, 104 S. Ct. 1970,
80 L. Ed. 2d 565 (1984);

10

Windsor v. McVeigh,
93 U.S. 274 (9th. Cir.);

9

IV

i

Orders Below
January 24, 2019, order on appeal from the district
court, denying leave to file Motion for Leave to proceed
in forma pauperis and for a writ of prohibition and
mandamus.
[Joint Appendix, P. 14]

April 12, 2019, order on appeal from the district
court, denying leave to file Motion for Relief from
Judgment; and Motion to Amend the application for writ
of error coram nobis.
[Joint Appendix, P. 17]

May 3, 2019, entered by the Judicial Council for the
Sixth Circuit, affirming the actions of the former Chief
Judge of the District Court, and present Chief Judge of
the Sixth Circuit Court of Appeals.
[Joint Appendix, Page 21]

May 6,

2019 letter from the Circuit Executor

informing Petitioner that there are no provisions for
further review by Motion to Rehear.
[Joint Appendix, Page 23]
1.

STATEMENT OF JURISDICTION
Pursuant to Rule 11 of this Court Rules, Petitioner,
Jessie D. McDonald, Pro se asks this Court to issue the
Writ of Certiorari to determine the constitutionality of
28, U.S.C. §352(b)(l)(A)(ii) & (iii) and related statutes;
and Rules for the Judicial-Conduct and JudicialDisability Proceedings for failing to provide provisions
for a rehearing or an appeal in judicial misconduct cases;
and whether the two federal judges acted illegally to
foreclose petitioner from having access to the district
court; and declared to be a ‘vexatious’ litigant, in the
absence of a hearing or charges in a pleading before the
court, before a judgment in the interest of the public?
IMPERATIVE PUBLIC IMPORTANCE
Independent Candidates in the November 6, 2018
General Elections were denied equal time as the
candidates for the democratic and republican parties,
based

on

rules

or

policies

from

the

Federal

Communications Commission and on appeal now.
Petitioner, an Independent Candidate for Governor of
Tennessee was denied access to the district court to seek
2.

i

injunctive relief or writ of prohibition because of a void
judgment that declared petitioner to be a Vexatious
litigant’ and now pending on appeal now.

Statement of Facts
Petitioner was denied leave to seek relief from the
void judgment that was entered without a hearing as
required under Rule 11, of FRCP; and there has never
been a judgment as required under 28, U.S.C., §1651(a),
declaring petitioner to be a vexatious litigant; nor has
there been a complaint or other pleadings before the
court that gave the district court jurisdiction to impose
monetary sanctions against petitioner; and denied leave
to seek injunctive relief to enjoin the enforcement of the
results from the public election on November 6, 2018,
where Independent Candidates were denied equal time
as allowed the democratic and republican candidates.
Petitioner, Jessie D. McDonald, acting pursuant to an
order that was entered, while in the custody of Vinson
Thompson, Warden at the Tennessee State Penitentiary,
in May of 1976, by Chief Judge, L. Clure Morton,
attempted to reinstate a habeas corpus proceeding in the
district court, after exhausting state remedies and after
3.

i

the imposed sentence had expired, by Petition for Writ
of Error Coram Nobis, under the All Writs statute, 28,
§1651(a), U.S.C.;(Clerk refused to provide a copy of that
order, even after petitioner paid the $30.00 research fee).
Rather than conducting a hearing on the merits of the
petition, Judge Thomas Wiseman set a show cause
hearing on charges amounting to ‘abusing the judicial
process’, when there had never been a pleading or
allegation against petitioner before the court.
Petitioner being an over the road truck driver was not
aware of the order until coming home several days after
the date that was set and the first monetary sanctions of
$500.00, was imposed; and the court GRANTED the
Motion to Recuse, based on bias and prejudices toward
petitioner.
Upon arriving home and finding the order, Petitioner
attempted to respond to the order, when Judge Trauger
imposed a second monetary sanction of $1,000.00,
without allowing a hearing to give petitioner the
opportunity to give a reason for not attending the show
cause hearing, as required under Rule 11 of Federal
Rules of Civil Procedure.
4.

i

The order further foreclosed and restricted the
petitioner of having access to the court for future filings
The effects of that order resulted in the district court
dismissing several civil lawsuits that were initiated in
accord with Federal Rules of Civil Procedure and even
taking the filing fee in one case and applying it towards
the monetary sanctions.
On another occasion, at a Kinko’s Copy Center
location

on

West

End

Avenue,

in

Nashville,

Tennessee...petitioner was making copies for a response
to a pleading in the U.S. District Court, in St. Paul, MN.,
when the copy came up, Judge Trauger snatched the
copy and read it in its entirety and later contacted the
Magistrate Judge and the District Judge in St. Paul, MN
and had the wrongful employment lawsuit to be
dismissed.
The district court judge even denied a Motion to
Recuse herself, that alleged bias and prejudice towards
petitioner; which resulted in a judicial misconduct
complaint being filed her.
The Chief Judge dismissed the complaint and a
Petition to Review the Order of Dismissal was submitted
to the Judicial Council of the Sixth Circuit that affirmed
5.

the dismissal. A motion to amend the brief of appellant
is pending before Senior Judge, Martha Craig Daughtrey
to include the constitutionality of the federal statutes
and rules of the Judicial Council for the Sixth Circuit.
These issues are on appeal in the Sixth Circuit and
because of important imperative issues involving a
public election on November 6, 2018, an immediate
review in this court is required.
Concise Argument
Petitioner has never been declared to be a Vexatious
litigant’ after being charged in a pleading before any
court, as required under the All Writs statute and was
wrongfully foreclosed from having access to the district
court to seek a writ of prohibition to prohibit the
enforcement of the public election results on November
6, 2018, where petitioner was denied equal time as an
Independent Candidate, as allowed democratic and
republic candidates, based on a void judgment from the
district court.
STATUTORY PROVISION
28, §2101(e), U.S.C.

6.

i

CONSTITUTION INVOLVED
Fifth and Fourteenth Amendments
All citizens have the right to equal protection and due
process in all courts from being discriminated against,
under the laws of the land.
REASONS WHY RELIEF SHOULD BE GRANTED
A review in this court is of such imperative
importance involving the enforcement of illegal voting
results on November 6, 2018 that denied Independent
Candidates

of

equal

time,

because

of

Federal

Communications Commission’s rules or policies.
Petitioner was denied leave to seek a writ of
prohibition or injunctive relief in the district court to
prevent the enforcement of fraudulent public voting
results because of a previous void judgment in the
district court, foreclosing petitioner’s right to access in
the district court and is presently on appeal now.
The district court denied leave to seek relief from the
void judgment and motion to amend the writ of error
coram nobis, to show ‘ongoing civil disabilities’, as
allowed under Rule 15 of Federal Rules of Civil
Procedure.
7.

i

The district judge has acted with malice on so many
occasions and denied a Motion to Recuse, based on bias
and prejudices. She even directed the clerk of the of the
district court to direct all new cases initiated by the
petitioner to her court; and even contacted judges in the
Middle District of Tennessee, as well as in the district
court in St. Paul, Minnesota, to have cases wrongful
dismissed.
This district court judge took the filing fee that was
paid in another case and applied it towards the imposed
sanctions, after causing Judge William J. Haynes to
dismiss an action involving the safety and welfare of
senior citizens, that dies and there are no provisions in
place to discover the dead residents until several days or
even weeks in some cases; without a show cause hearing.
A complaint was filed in the Sixth Circuit Judicial
Council for judicial misconduct against Judge Aleta
Trauger and it was dismissed by former Chief Judge,
and present Chief Judge in the Sixth Circuit Court of
Appeals, Guy Cole, after finding no wrong doings.

8.

On review by the Sixth Circuit Judicial Council, the
qualifying members of the council affirmed the dismissal
of the complaint; and informed petitioner that there
were no provisions that allow a rehearing or an appeal.
A Motion for Leave to Amend the Brief of Appellant
to include a due process question by the Sixth Circuit
Judicial Council is presently pending before Senior
Judge

Martha

Craig

Daughtrey,

challenging

the

constitutionality of 28 U.S.C. §352(b)(l)(A)(ii)(&(iii)( and
Rule 11(c)(1)(B) &(C) of the Rules for Judicial-Conduct
and Judicial-Disability Proceedings, for not having
provisions for a rehearing or an appeal.
In another case, a Tennessee state criminal court
judge imposed a $25.00 fine and 1 day suspended
sentence on a gambling charge by playing street
numbers, against the petitioner in this case. After the
fine was paid, Judge Cheryl Blackburn in Division III,
Criminal Court for Nashville and Davidson County,
Tennessee, increased the fine eight years later, to a
$50.00 fine, showing the interest to change the cost to
$648.00. The state court refused to allow petitioner to
get a copy of the transcript, even though petitioner
offered to pay the cost for the transcript. The district
9.

i

court judge

dismissed the

complaint

on judicial

immunity which conflicts with the established laws on
judicial immunity.
While at Kinko’s Copy Center on West End Avenue,
Judge Trauger snatched a paper from the copy machine
that petitioner was copying and read it in its entirety,
which involved a wrongful employment termination in
St. Paid, Mn., and she contacted the district judge
through the magistrate judge and had that judge to
dismiss that lawsuit. She also denied a motion to recuse
herself from my case when the motion was based on bias
and prejudice. She also ordered the clerk to single my
Cases out from the normal assigning of cases and send
any and all case that petitioner submit, to her court.
This Court has said, “ A judge was not liable for judicial
acts unless they were done maliciously or corruptly” .
Randall v. Brigham, 74 U.S. (7 Wall.) 523, 19 L. Ed. 285
(1868) and “...if a person subjected to unconstitutional
practice files suit against the judge, the judge will not be
given immunity and upon losing the case, will be forced
to pay plaintiff attorney fee and court costs:. “ Pulliam v.
Allen, 466 U.S. 522, 104 S. Ct. 1970, 80 L. Ed. 2d 565
(1984).
10.

i

This court should determine whether the Sixth
Circuit Judicial Council has jurisdiction, since court of
appeals jurisdiction is purely statutory and they do not
have general supervisory powers over judges of the
district court. In re MacNiel Bros. Co., C.A. Mass., 1958,
259 F. 2d 386.
To show such imperative and importance to justify
deviation from normal appellate practice and to require
immediate determination in this Court, the general
public is being subjected to being served by illegal and
unlawful individuals from an illegal election; as well as
being subjected to an unconstitutional statute that
authorize the Sixth Circuit Judicial to function in a
manner that conflicts with due process, by not having
provisions for a rehearing; nor an appeal from a final
decision from the qualified members of the reviewing
panel.
These are important reasons why this Court should
exercise its supervisory powers over the judicial council’s
judgments, if for no other reason, to determine whether
the Sixth Circuit Judicial Council’s statutory authority
11.

i

and rules conflicts with due process, since their decisions
are final and there is no accountable, not even to this
court; and whether the election was illegal.
Therefore, it is necessary to review judgments like
the case at bar, when the council affirmed a dismissal by
a chief judge, when the judge accused of the wrongful
conduct acted with malice, corruptly and in a complete
absence of personal or subject matter jurisdiction.
Petitioner has never been charged or accused of an
illegal act, wrongful conduct nor given notice that a
litigant had a specific number of times in their lifetime
to seek relief from the courts or any court, when justice
is at issue.
Petitioner has never been served with a Notice, or
Motion to Declare Petitioner a Vexatious Litigant; nor
has there been an application for a pre-filing order,
pursuant to 28 USC, §1651(a) to justify Judge Trauger
foreclosing petitioner’s rights to access of the district
court, and Judge Cole acted illegally by dismissing the
complaint for judicial misconduct, as well as the
affirmation by the Sixth Circuit Judicial Council.

12.

It has been previously determined that, to single out ■„
a litigant by limiting and restricting a litigant to access
of the courts is a violation of due process when there has
been on complaint or petition accusing the litigant of any
wrong doings. Brown v.

Vankeuren,

340 Ill.

118,

122,(1930). Where there is no justifiable issue is
presented to the court through proper pleadings, the
judgment is void. Ligon v. Williams, 264 Ill. App. 3d 701
(1994).
Relief Sought
For the reasons as shown herein, Petitioner, Jessie D.
McDonald, Pro se asks this court to GRANT this
application for writ of certiorari before a judgment has
been entered on the pending appeal, to prevent further
enforcement of the aggrieved statute that prevents
further review from final decisions of the judicial council
and the void judgment in the district court; with
instructions for future complaints for judicial misconduct
be forwarded and transferred to the Clerk office of this
Court for review; and all other and further relief the
Court deems to be appropriate, and void the election.
Respectfully submitted,
Jessie D. McDonald, Ph. D.
13

